                                                                      Ofice oflrispcctor Ger~ernl
                                                                      Atlanta Field Ofjce -Audit Divism

                                                                      I-.S. Department of Homeland Securitj
                                                                      3003 Chamblee-Tucker Road
                                                                      Atlanta, Georgia 30341




                                     August 8,2005

MEMORANDUM FOR:            Kenneth L. Horak
                           Acting Re-tor,               FEMA Region I
                          %
FROM:


SUBJECT:                      Audit of the State of New Hampshire
                              Administration of Disaster Assistance Funds
                              Audit Report No. DA-26-05

Attached for your review and follow-up are five copies of the subject audit report that was prepared
by an independent accounting firm, Soza & Company, Ltd under contract with the Office of
Inspector General. In summary, Soza & Company determined that the State of New Hampshire's
Bureau of Emergency Management should improve certain financial and program management
procedures associated with the administration of disaster assistance funds.

On July 5,2005, your office responded to the draft report. Based upon your response, the findings
are resolved, but require an additional response describing actions taken to implement the
recommendations.

Please advise the Atlanta Field Office-Audit Division by November 8,2005 of the action taken.
Should you have any questions, please contact George Peoples or me at (770) 220-5242.

Attachments
                                                                                                                         August 5,2005
                     U.S. Department of Homeland Security
                     Office of the Inspector General
                     Washington, D.C. 20005

                     In accordance with Contract No. GS-23F-9843H, dated November 21,2001, and Order
                     No. TPD-FIG-03-K-00019, dated May 19, 2003, Soza & Company, Ltd. conducted an
                     audit of the State of New Hampshire's Bureau of Emergency Management to assess its
                     compliance with the Robert T. Stafford Disaster Relief and Emergency Assistance Act
                     (Public Law 106-390, as amended) and applicable Federal regulations. This audit was
                     initiated by Soza & Company, Ltd. (SOZA). Soza was acquired by Perot Systems
                     Government Services, Inc. (Perot Systems) in February 2003 in a 100-percent stock
                     purchase, and continued to operate as a wholly owned subsidiary of Perot Systems until
                     all Soza contracts were novated to Perot in November 2004 and Soza was dissolved at
                     the end of that year.

                     The audit objectives were to determine if New Hampshire's Bureau of Emergency
                     Management (grantee) administered the grant programs in accordance with Federal
                     regulations, and accounted for, reported, and used the Federal Emergency Management
                     Agency's (FEMA) funds properly. We identified two program management findings
                     related to compliance with Federal regulations, as well as three financial management
                     issues primarily related to the financial records and internal controls. This report
                     presents the results of our audit and includes recommendations to help improve the
                     State of New Hampshire's administration of the FEMA's disaster assistance programs.

                     Our audit was conducted in accordance with the applicable Government Auditing
                     Standards, 1994 Revision, as amended. Although the audit report comments on costs
                     claimed by the State of New Hampshire, we did not perform a financial statement
                     audit, the purpose of which would be to render an opinion on the financial statements.
                     The scope of our audit consisted of program and financial activities for five (5)
                     Presidential disaster declarations and one (1) emergency declaration, all of which
                     occurred between January 3, 1996 and March 28,200 1, and were financially open as of
                     September 30,2002. The audit included the Public Assistance (PA), Hazard Mitigation
                     (HM), and Individual and Family Grant (IFG) programs for each disaster, as
                     applicable.

                     We appreciate the cooperation and assistance received from both the grantee and
                     FEMA Region I personnel. Where applicable, we have considered the views of the
                     grantee and FEMA Region I officials when writing this report. FEMA regional office
                     and grantee officials generally concurred with our findings and recommendations, and
                     are taking corrective actions to resolve the findings discussed in the report.

                     If you have any questions, or if we can be of any further assistance, please contact
                     Terry H. Byce at (703) 289-6836.




                     ~ i ; " e d b r~inancial
                                    ,       and ~ u x n e s Service
                                                            s       Group
                     Perot Systems
                     Fairfax, Virginia




           Perot Systems Corporat~on 8270 Willow Oaks Corporate Drlve   Fairfax Virginia 22031   a   tel 703 289 8000   fax 703 289 8099
--
     ---         -         - ---- -      --                -
                                                                          -
                                                                                            -        -
                                                                                                     -                             --
FEMA                                                               Bureau of Emergency Management
                                                                             State of New Hampshire




  Soza & Company, Ltd. completed an audit of the administration of the disaster assistance
  grant programs by the New Hampshire Bureau of Emergency Management (grantee). The
  objectives of this audit were to determine if the grantee administered the Federal Emergency
  Management Agency (FEMA) Disaster Assistance Grant Programs in accordance with the
  Robert T. Stafford Act and appropriate Federal regulations, properly accounted for, reported,
  and expended the FEMA disaster assistance funds, and operated and functioned appropriately
  to fulfill its administrative, fiscal, and program responsibilities. This report focuses on the
  systems and procedures within the grantee for assuring that grant funds were managed,
  controlled, and expended in accordance with the Robert T. Stafford Disaster Relief and
  Emergency Assistance Act (as amended) and the requirements set forth in Title 44 of the
  Code of Federal Regulations, Emergency Management and Assistance, (44 CFR). The
  Federal share of the funds obligated and expended for each of the disasters included in the
  audit scope is presented in Attachment A of this report. Our audit concentrated on the
  grantee's use, management, and reporting of FEMA program funds received under the Public
  Assistance (PA), Individual and Family Grant (IFG), and Hazard Mitigation (HM) programs.
  Our audit period included five (5) major disasters declared by the President of the United
  States and one emergency declaration, all of which occurred between January 3, 1996 and
  March 28, 2001, and were financially open as of September 30, 2002. The following table
  identifies the programs that had been implemented within each of the disasters or emergency
  declaration.
  -
       Disaster             Declaration                      Type of                     Programs
         No.                   Date                         Disaster                    Implemented
                                                Excessive Rain, High Winds, and
                1077       January 3 , 1996                                              PA and HM
           . ....-....            ."                 (__
                                                            Flooding. ...,....__"               .
  ...........   1144      October 29, 1996        Fall Northeastern......Rainstorm    PA, IFG, and.........
                                                                                                      HM ...
                         I January 15, 1998 1                                        I PA, IFG, and HM 1
                                                               "      "

                                                Severe Ice Storms, Rain, and High
                                                             ur:-a"




  In accordance with our agreement with the Office of Inspector General (OIG), the audit
  focused on the grantee's program and financial management procedures and practices.
  During the audit, we emphasized the need to identify the causes of each reportable condition.
  In addition, we have made recommendations that, if implemented properly, would improve
  the grantee's management, eliminate or reduce weaknesses in internal controls, and correct
  noncompliance situations. The findings reported below are discussed in the body of the
  report.

  Our testing identified the following instances of noncompliance:
PEMA                                                    Bureau of Emergency Management
                                                                  State of New Hampshire


       1.   The grantee did not have procedures in place to ensure that subgrantees are
            complying with the requirements of the Single Audit Act of 1996.
       2.   The grantee was unable to provide disbursement records supporting payments
            reportedly made to Individual and Family Grant program recipients.



       1.    The grantee had not drawndown and disbursed funds in a timely manner.
       2.    The grantee was unable to document the program outlays reported to FEMA on the
             Financial Status Reports. Furthermore, the grantee's records did not fully identify
             the amounts for which the state andlor subgrantee was responsible.
       3.    The grantee did not have adequate procedures in place to prevent overpayments to
             subgrantees.

Where applicable, we considered the views of the grantee and FEMA Region I officials when
writing this report.




   State agencies are the first to respond once a disaster has occurred. Depending on the size
   and severity of the disaster, the State's Governor may request the President of the United
   States to declare a major disaster, which would make relief grants available through FEMA.
   After the President declares the disaster, FEMA provides financial assistance, through a
   designated agency within the affected state, by implementing one or more grant programs.

   The New Hampshire Bureau of Emergency Management (grantee) is New Hampshire's lead
   agency for the coordination of emergency management programs and response measures. Its
   mission is to protect the lives, property, and environment of the people of New Hampshire
   from the threat or occurrence of emergencies resulting from any natural or man-made
   disaster, including, but not limited to: floods, fires, earthquakes, windstorms, tsunami,
   technological incidents, droughts, terrorism, epidemics, hurricanes, and tornadoes. The
   preparation for and carrying out of all emergency functions is the grantee's responsibility and
   is accomplished through the four phases of emergency management: mitigation,
   preparedness, response, and recovery. Grantee activities to meet this end include
   coordination, planning, training, drills, exercises, and financial assistance.

   The Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended, governs
   disasters declared by the President of the United States. Following a major disaster
   declaration, the Act authorizes FEMA to provide various forms of disaster relief to the state,
   as the grantee; and to state agencies, local governments, eligible private nonprofit
   organizations, Indian Tribes, and Alaska Native Villages, as subgrantees. On October 30,
   2000, the President signed the Stafford Act amendments into law (Public Law 106-390).
   These amendments are effective only for disasters declared after October 2000. In addition,
   44 CFR provides further guidance as to the requirements for the implementation,
   administration, and management of disaster relief grants.



                                      Soza & Company, Ltd.                                         3
          FEMA                                                                           Bureau of Emergency Management
                                                                                                   State of New Hampshire
               Our audit concentrated on the grantee's use, management, and reporting of FEMA program
               funds received under the Public Assistance (PA), Individual and Family Grant (IFG), and
               Hazard Mitigation (HM) programs. Three permanent employees managed these programs on
               a daily basis and other state employees assisted them in carrying out their functions during
               active and inactive disasters.

               The New Hampshire Department of Health and Human Services (DHHS) was responsible for
               managing the IFG program on the grantee's behalf. However, the grantee was responsible
               for the financial management of the IFG program. DHHS had one individual responsible for
               the management of the IFG grant, on the grantee's behalf. As of 2004, the State of New
               Hampshire has elected for FEMA to manage the IFG program on its behalf.

               Public Assistance Grants:

               Public Assistance (PA) grants are awarded for the repair and replacement of facilities,
               removal of debris, and the implementation of emergency protective measures necessary after
               a disaster occurs. In order for a subgrantee to receive funds through the PA grant, a
               designated representative of the subgrantee must complete FEMA Form 90-49, Request for
               Public Assistance. FEMA and grantee personnel will review the Request for Public
               Assistance and determine if the subgrantee is eligible to receive funds under the PA grant
               program. If the subgrantee is eligible, FEMA will assign a Public Assistance Coordinator
               (PAC) to the subgrantee, which serves as the subgrantee's customer service representative
               and will be responsible for managing the subgrantee's projects. In addition, the grantee may
               assign a State Applicant Liaison (liaison) to the subgrantee, who is responsible for ensuring
               that the subgrantee's needs are met. Once the PAC and liaison have been assigned, the three
               parties schedule a "Kickoff Meeting," where the subgrantee's specific eligibility and
               documentation needs are discussed. After the "Kickoff Meeting" the PAC verifies the initial
               eligibility of the subgrantee and subsequently prepares the Project Worksheet (PW)'. FEMA
               will then review the PW and, if approved, they will obligate the necessary funds. The total
               costs of the projects are shared by FEMA and the grantee with FEMA covering at least 75
               percent of the eligible costs. The remaining funds are paid by non-Federal sources, to include
               the grantee andlor local governments and agencies.

               44 CFR provides that PA projects be classified as either "small" or "large." The classification
               is based on a project threshold, which is adjusted annually to incorporate changes in the
               Consumer Price Index for All Urban Consunlers, as published by the U.S. Department of
               Labor. For example, the threshold as of October 1, 2001 was $52,000; therefore, projects
               costing less than $52,000 are classified as "small," whereas projects costing $52,000 or more
               are considered "large" projects.

               In order to prevent unnecessary delays, the Federal share of the costs for small projects is
               disbursed soon after FEMA's approval. However, for large projects, progress payments are
               made to the subgrantees based on actual costs, as documented. After a large project has been
               completed, the grantee evaluates and reports the final cost to FEMA which will then adjust
               the amount of the large project to reflect the actual costs incurred.




          ' Prior to the use of Project Worksheets, Disaster Survey Reports were used.

                                                                   Soza & Company, Ltd.                                     4
- -   .                        -                -              -             ---           -
                                                                                                   -p




                                                                                                    --- - - -
                                                                                                     pp--pp------
              -
FEMA                                                                            Bureau of Emergency Management
                                                                                          State of New Hampshire
   Individual and Family Grants:

   The Individual and Family Grant (IFG) program provides financial assistance to individuals
   and families who have sustained damage or developed serious needs because of a natural or
   man-made disaster. Subgrantees wishing to obtain assistance under this program may first be
   required to apply to the Small Business Administration (SBA) for a disaster loan. If the SBA
   determines that the subgrantee is not eligible for a SBA loan, SBA will refer the subgrantee to
   the IFG program for consideration. In order for assistance to be available through this grant,
   the Governor of the State must specifically express the intent to implement this program.
   This expressed intent must include an estimate of the size and cost of the program. The total
   costs of the program are shared by FEMA and the grantee, with FEMA covering 75 percent
   of the allowable costs. The remaining funds are paid by non-Federal sources from funds
   made available by the grantee.

   Hazard Mitigation Grants:

   The Hazard Mitigation (HM) Grant program is awarded to states to help reduce the potential
   damages from future disasters. The grantee must submit a letter of intent to participate in the
   program, and subgrantees must submit a Hazard Mitigation grant proposal to the grantee.
   Even though the grantee is responsible for setting the priorities for the selection of specific
   projects, the final approval comes from FEMA. Grants are awarded to state agencies, local
   governments, eligible private non-profit organizations, Indian Tribes, and Alaska Native
   Villages. The amount of assistance available under this program must not exceed 20 percent2
   of the total assistance provided under the other assistance programs. The total costs of the
   program are shared by FEMA and the grantee, with FEMA covering up to 75 percent of the
   program costs. The remaining funds are paid by non-Federal sources.

    Administrative Funds:

    Under the PA and HM programs, FEMA may grant three types of administrative funds to the
    grantee for overseeing the program.

          1. Administrative Cost Allowance: Provided to the grantee to cover any extraordinary
             costs that are directly associated with administering the program. This allowance
             amount is determined by using a statutorily mandated sliding scale percentage that is
             applied to the total amount of Federal assistance awarded under each program for
             each disaster. This allowance is intended only for extraordinary costs. For example,
             costs incurred for preparing Project Worksheets or final inspection reports,
             processing project applications, conducting final audits and related field inspections,
             overtime, per diem, and travel expenses are considered administrative costs.
             However, the administrative cost allowance does not include provisions for regular,
             full-time employees' straight time.
          2. State Management Costs: Provided to cover only ordinary or regular expenses
             directly associated with the program.
          3. Indirect Costs: Provided for activities indirectly associated with the program
             administration.




Recent amendments to the Stafford Act, Section 322, increased this percentage fiom 15 to 20 percent.
FEMA                                                   Bureau of Emergency Management
                                                                 State of New Hampshire
  For the IFG program, up to five percent of the Federal share of total program costs may be
  allocated for administrative costs.



  Objectives:

  To determine if the State of New Hampshire:
       1. Administered the FEMA Disaster Assistance Grant Programs in accordance with the
          Stafford Act and appropriate Federal regulations;
       2. Properly accounted for and expended FEMA disaster assistance funds; and
       3. Submitted accurate financial expenditure reports for the Disaster Assistance Grant
          Programs.

  Scope:

  The scope of our audit included five major disasters and one emergency declaration, under
  which FEMA awarded 14 grants. These disasters were declared between January 3, 1996,
  and March 28,2001.

  The cut-off date for the audit was September 30, 2002. However, we also reviewed current
  activities related to the conditions found during our audit to determine whether the grantee
  had taken appropriate corrective actions.

  Methodology:

  We conducted our audit in accordance with the Consolidated Audit Guide for Grantee Audits
  of FEMA Disaster Programs prepared by the OIG.

  Our audit work included interviewing key FEMA officials and reviewing documents at the
  FEMA Region I office in Boston, Massachusetts, to gain an understanding of the internal
  controls in place as well as to determine current issues and concerns regarding the grantee's
  administration and management of the disaster assistance programs.

  The majority of the audit work was conducted at the grantee's office in Concord, New
  Hampshire. We interviewed key grantee officials and reviewed documents to gain an
  understanding of the grantee's organizational structure, internal control system, and policies
  and procedures that were followed. We also reviewed samples of program files and
  supporting documentation to determine if prescribed policies and procedures were complied
  with, expenditures were adequately supported, and financial reports were prepared accurately
  and on a timely basis.

  During the fieldwork phase of the audit, we adjusted our scope, depending on the program
  being tested, in order to obtain reasonable coverage over each grant program. For each
  disaster selected, we reviewed the appropriate documentation to determine whether the
  disaster assistance programs had been implemented in accordance with the applicable
  regulations. Furthermore, we reviewed the grantee's current systems and procedures to
  identify any internal control weaknesses or noncompliance situations. Where applicable, we
PEMA                                                     Bureau of Emergency Management
                                                                   State of New Hampshire
   have considered the views of FEMA Region I and the grantee officials when writing this
   report.

   We also reviewed prior audits performed within the time frame of the disasters included in
   our audit scope, which included Office of Management and Budget (OMB) Circulars No. A-
   128 and A-133 audits performed by the New Hampshire Office of the Legislative Budget
   Assistant. Our audit scope did not include interviews with or visits to subgrantees or project
   sites; therefore, we did not evaluate the technical procedures used in estimating and
   processing the repairs caused by disaster-related damage.

   The audit was conducted in accordance with Government Auditing Standards as prescribed
   by the Comptroller General of the United States. We were not engaged to and did not
   perform a financial statement audit, the objective of which would be to express an opinion on
   specified elements, accounts, or items. Accordingly, we do not express an opinion on the
   costs claimed for the disasters under the scope of the audit. If we had performed additional
   procedures or conducted an audit of the financial statements in accordance with generally
   accepted auditing standards, other matters might have come to our attention that would have
   been reported. This report relates only to the accounts and items specified and does not
   extend to any financial statements of the grantee or the State of New Hampshire.

IV. FINDINGS
           AND RECOMMENDATIONS

The audit results are summarized in two major sections: Program Management and Financial
Management. These sections contain findings and related conclusions and recommendations.

  A.   Program Management

   1. The Grantee Lacked Procedures to Ensure Compliance with the Single Audit Act

       The grantee did not have procedures in place to ensure that subgrantees who receive PA
       and HM funds were: 1.) complying with the requirements under the Single Audit Act;
       2.) forwarding these audit reports to the grantee for review; and 3.) taking the necessary
       actions to correct conditions cited in the reports. Our testing determined that the grantee
       only advised subgrantees of the audit requirements in close out letters and did not have
       the procedures in place, as required by 44 CFR 206.207 and 206.437 to ensure that the
       subgrantees have complied with the audit requirements.

       The regulations required the grantee to develop procedures to ensure subgrantees
       complied with the single audit requirements. Prior to June 30, 1996, subgrantees that
       received more than $25,000 in total Federal assistance during a fiscal year were required
       to have an audit performed in accordance with the Single Audit Act of 1984. For fiscal
       years beginning after June 30, 1996, subgrantees that expended $300,000 or more in
       Federal funds during a fiscal year were required to have an audit performed in accordance
       with the Single Audit Act Amendments of 1996 and OMB Circular No. A-133.

       Grantee officials stated that they informed each subgrantee of the requirements of the
       Single Audit Act. However, the grantee did not have sufficient staff to ensure that the
       subgrantees had the audits performed, submitted the reports for review, and corrected the
       conditions cited in the reports. Grantee officials indicated that there was a hiring freeze
       mandated by the New Hampshire Governor. As a result, they were unable to hire
       additional full-time employees to fulfill the monitoring duties related to subgrantee
FEMA                                                     Bureau of Emergency Management
                                                                   State of New Hampshire
       audits. Grantee officials indicated that if a disaster did occur, they would be allowed to
       hire temporary personnel to ensure that disaster assistance grants were properly
       implemented.

       Conclusion and Reconmendations

       Improper grantee oversight increased the risk that subgrantees were not arranging for
       single audits to be performed. This further increased the risk that the FEMA funds
       received by subgrantees may have been subjected to misuse.

       Accordingly, we recommend that the Regional Director, FEMA Region I, require the
       grantee to:
           1. Assess andlor re-assign the staffing level needed to ensure that subgrantees are
               complying with the Single Audit Act of 1996; and
           2. Implement procedures to ensure compliance with the requirements of the Act, to
               include:
                   Identifying current and future subgrantees that are required to comply with
                   the single audit requirements;
                   Obtaining applicable audit reports from subgrantees and performing an
                   effective review to identify deficiencies; and
                   Following-up with subgrantees to ensure that corrective actions are taken to
                   resolve the reported findings.

       Management's Response

       FEMA Region I and New Hampshire Bureau of Emergency Management concur with
       this finding and recommendations. The Bureau of Emergency Management is now under
       the Department of Safety; and as such has a new Director of Business Administration
       with associated financial support. It is the State of New Hampshire's intent to work with
       the Director of Business Administration as well as the state Auditor's to develop a
       procedure to comply with the Single Audit Act. Once a procedure is developed it will be
       forwarded to DHSDEMA Region I.

       Auditor's Additional Comments

       The actions described by management adequately address the conditions cited.
       Therefore, the condition is resolved, but the finding cannot be closed until the
       recommended actions are taken.

  2. The Grantee Did Not Have Supporting Documentation for Costs Claimed Under
     the Individual and Family Grant

       The New Hampshire Department of Health and Human Services (DHHS) was
       responsible for managing the IFG Program on the grantee's behalf. DHHS officials had
       destroyed files that pertained to the IFG program implemented under Disaster Nos. 1144,
       1199, and 1231.
FEMA                                                     Bureau of Emergency Management
                                                                   State of New Hampshire
       Specifically, we noted that the only files available for our review included basic summary
       schedules that listed payees and their respective award amounts. However, information
       regarding when the applications were received and the source documents supporting the
       payments were not available for our review.

       Therefore, DHHS did not have source documents available to support payments made to
       IFG sub-recipients. Accordingly, we were unable to:

           1. Determine if any IFG applications were accepted 60 days after the disaster was
              declared;
           2. Ensure that payments were made timely and supported by the required source
              documentation; and
           3. Examine supporting documentation to ensure that only allowable costs were
              claimed under the IFG program.

       In accordance with the record retention policy described in 44 CFR 13.42, the files for
       these three grants should have been retained for three years after the date of the "final"
       financial status report. The last Quarterly Financial Status Report, submitted to FEMA
       Region I for the grant awarded under Disaster No. 1144 and Disaster No. 1199 were each
       dated April 9, 2001, and the grantee had not submitted a final report to FEMA for any of
       the three grants as of September 30, 2002. Therefore, the supporting documentation
       pertaining to these three grants should have been available for our review.

       The New Hampshire DHHS officials indicated that in an effort to save space, the IFG
       Coordinator contacted FEMA Region I for authorization to destroy documentation related
       to the IFG grants that had been implemented under Disaster Nos. 1144, 1199, and 1231.
       DHHS officials indicated that the IFG Coordinator had received verbal authorization
       from FEMA Region I to destroy the files that contained the source documentation used to
       justify payment to the IFG sub-recipients. However, the IFG Coordinator has since
       retired from DHHS and we were unable to verify this reported verbal authorization with
       officials at FEMA, Region I.

       Corzclusion and Recommendations

       Properly maintaining records and supporting documentation is required to ensure that the
       IFG program had been implemented in accordance with the applicable regulations.
       When there is an absence of these records, there is an increased risk that the program may
       not have been managed and implemented as intended by FEMA.

       Accordingly, we recommend that the Regional Director, FEMA Region I, require the
       grantee to implement procedures to ensure that under future disasters, managers of
       FEMA programs are fully aware of and comply with the Federal records retention
       requirements specified in 44 CFR 13.42.

       Management's Response

       FEMA Region I and New Hampshire Bureau of Emergency Management concur with
       this finding and recommendations. The State of New Hampshire indicates that the
       Bureau of Emergency Management will work with the Department of Health and Human


                                       Soza & Company, Ltd.                                         9
FEMA                                                        Bureau of Emergency Management
                                                                      State of New Hampshire
       Services to develop a policy to ensure they follow proper procedures regarding records
       retention for federal disasters.

       Auditor's Additional Coinments

       The actions described by management adequately address the condition cited. Therefore,
       the condition is resolved, but the finding cannot be closed until the recommended actions
       are taken.

 B.    Financial Management

  1. The Grantee Had Weak Controls Over the Grant Disbursement Activities

       During our testing of the grantee's Federal cash drawdown procedures, we noted
       instances of noncompliance with the Federal requirement to minimize the time elapsed
       between the drawdown and disbursement of Federal funds. The grantee obtained Federal
       funds electronically using the SMARTLINK system, which is the system required for the
       drawdown of Federal funds for immediate use. However, as discussed below, the grantee
       failed to comply with the Federal cash management requirements.

       We determined that the grantee draws funds from the SMARTLINK system and records
       this activity with all of its Federal Grant activity in the State of New Hampshire's
       accounting system. These drawdowns are coded, so that the awarding agency and grant
       can be identified. We selected a sample of 198 drawdowns of Federal funds, and traced
       these draws to the related disbursement recorded in the state's accounting records to
       determine if the funds were disbursed in a timely manner. The results of our testing were
       as follows:

                Ten drawdowns, representing $13 1,459 under the Public Assistance, Individual
                and Family Grant, and Hazard Mitigation Grant Programs had been disbursed
                between 20 and 585 days after the funds were received by the state.
                Expenditures related to 20 of the drawdowns, representing $6,674,176, selected
                under the Public Assistance, Individual and Family Grant, and Hazard Mitigation
                Grant Programs could not be identified in the grantee's accounting records. The
                grantee officials were unable to provide an explanation of why these drawdowns
                could not be identified in their accounting records. Furthermore, the officials
                indicated that reconciliation between the accounting records and the funds drawn
                through SMARTLINK had been prepared for each disaster. However, the
                grantee could not locate any of these reconciliations for our review.


       I                              Draw Down Summary Schedule
                                                                              /I   Unable to Identify When
           Program      Total Draws             Untimely Disbursements              Disbursement Made

                     No.   /   Amt.
                                        /   No. Of
                                            Draws
                                                     Aggregate
                                                                  Days Late   1
                                                                              I    No. Of
                                                                                   Draws
                                                                                               Aggregate
                                                       Total                                     Total
FEMA                                                   Bureau of Emergency Management
                                                                 State of New Hampshire
       44 CFR 13.20(b) requires the grantee to have procedures in place to minimize the time
       elapsed between the transfer of funds fi-om the U.S. Treasury and the disbursement of
       such funds. Also, FEMA Manual 2700.1, Advance Financing Payment Systems,
       paragraph 3-3(d) states, "Recipient organizations funded via the SMARTLINK System
       generally should not have more than 3 work days' cash on hand."

       The grantee officials stated that they were unaware that these drawdowns had not been
       disbursed in a timely manner. Also, the officials could not explain why the disbursement
       of some of these drawdowns could not be traced to entries in their official accounting
       records.

       Conclusion and Recommendations

       The grantee's failure to implement effective cash management procedures increases the
       risk that funds may be used for unauthorized purposes.

       Accordingly, we recommend that the Regional Director, FEMA Region I, require the
       grantee to:
           1. Implement effective cash management procedures to ensure drawdowns of
               Federal funds cover immediate cash needs and are timely disbursed within three
               days to comply with Federal requirements; and
           2. Improve accounting procedures to ensure that the drawdown of Federal funds can
               be traced to the related disbursement records for authorized program purposes.

       Management's Response

       FEMA Region I and New Hampshire Bureau of Emergency Management concur with
       this finding and recommendations. The State of New Hampshire indicates that with the
       realignment of the Bureau of Emergency Management to the Department of Safety and
       the appointment of a new director of Business Administration to handle financial aspects
       of the Bureau, recommended controls are established to handle the financial aspects of
       Bureau responsibilities. New Hampshire further indicates that the Bureau will reinforce
       the FEMA policy of "Not having more than 3 work days' cash on hand." Additionally,
       the Bureau will work with the new director of Business Administration to establish
       procedures that ensure drawdown's of Federal funds can be related to disbursement
       records.

       Auditor's Additional Comments

       The actions described by management adequately address the conditions cited.
       Therefore, the condition is resolved, but the finding cannot be closed until the
       recommended actions are taken.
FEMA                                                     Bureau of Emergency Management
                                                                   State of New Hampshire
  2. The Grantee's Financial Status Reports to FEMA Were Not Properly Completed or
     Supported

       During our testing of the SF-269a, Financial Status Report, dated September 30, 2003,
       we were unable to trace the current period's reported expenditures to the grantee's
       accounting records. In addition, we were unable to trace the cumulative expenditures
       reported for four of the nine disasters, to the grantee's accounting records.

       Specifically, we found that the grantee had reported $18,776,199 to FEMA Region I as
       the cumulative Federal share of expenditures under Disaster Nos. 1199, 1231, 1305, and
       EM-3166 under the Public Assistance, Individual and Family Grant, and Hazard
       Mitigation programs. However, the grantee's Integrated Financial System (TFS) reflected
       expenditures of only $l8,77 1,707, which indicated that $4,492 in expenditures reported
       to FEMA Region I was unsupported.

       Furthermore, we noted that the grantee's accounting records did not fully identify the
       amounts for which the state and/or local governments were responsible. Specifically, the
       grantee's accounting records did not clearly identify the state and/or local match, as
       required by the grant award agreements. Therefore, we were unable to determine what
       amounts were reported as the state's or local government's share of costs.

       44 CFR 13.20(b) requires the grantee to maintain records, which adequately identify the
       source and application of funds provided for financially assisted activities. Furthermore,
       the grantee should be able to support all costs reported to FEMA on the forms SF-269a,
       Financial Status Report, including the state and/or local match reported on this form.

       The grantee indicated the forms SF-296a are prepared based on the information recorded
       in IFS along with supporting schedules that reconcile the amounts reported on the forms
       SF-296a to the amounts recorded in the IFS. The grantee indicated that these supporting
       schedules could not be located and that the documents may have been misplaced,
       misfiled, or destroyed. The grantee indicated that the individual who prepared forms SF-
       269a no longer works for the grantee, due to the merger between the grantee and the
       Department of Safety. Grantee officials indicated that the responsibilities assigned to this
       individual were transferred to the Business Administrator. Furthermore, the grantee
       indicated that they were not aware of the requirement to identify the state andlor local
       match in their accounting records.

       Conclusion and Recoiitmendations

       By not ensuring that the expenditures reported to FEMA Region I were supported, there
       is an increased risk that the expenditures reported may not be accurate and reliable.

       We recommend that the Regional Director, FEMA Region I, require that the grantee
       updatelprepare written procedures for correctly completing the Financial Status Reports,
       and maintain the required supporting documentation to ensure that the amounts reported
       to FEMA Region I are accurate and properly supported.
FEMA                                                     Bureau of Emergency Management
                                                                   State of New Hampshire
       Management's Response

       FEMA Region I and New Hampshire Bureau of Emergency Management concur with
       this finding and recommendations. The Bureau will request that the Director of Business
       Administration develop procedures regarding the preparation of Financial Status Reports
       and maintenance of associated supporting documentation.

       Auditor's Additional Comments

       The actions described by management adequately address the conditions cited.
       Therefore, the condition is resolved, but the finding cannot be closed until the
       recommended actions are taken.

  3. The Grantee Did Not Have Adequate Procedures in Place to Prevent Overpayments
     to Subgrantees

       During our testing of the Public Assistance program, we found that the grantee did not
       have procedures in place to prevent overpayments to subgrantees. Specifically, we noted
       that the Town of Weare, under Disaster No. 1144, had been paid $108,502 as their
       Federal share of funds. However, the town was only eligible to receive $75,328 in
       Federal funds. The difference of $33,174 represented an overpayment of Federal funds.
       This total overpayment of $33,174 occurred because under Project 04476, the original
       Damage Survey Report (DSR) amount was de-obligated and supplemental DSRs were
       written for this project. However, during the final inspection, the de-obligated DSR
       amount was included in the total project costs.

       According to grantee and FEMA officials, an agreement existed between both parties that
       made FEMA responsible for determining project cost eligibility and preparing the DSRs.
       During the course of a project, a subgrantee is paid for the portion of project costs that
       have been incurred to date. The grantee was responsible for monitoring large
       subgrantees' progress through quarterly status reports, which identify the costs incurred
       to date. In addition, the grantee was responsible for reviewing the subgrantees' invoices
       for accuracy and cost overruns. Once the subgrantee has completed the entire project,
       FEMA performs a final inspection and prepares a final inspection report, which indicates
       the remaining amount due to the subgrantee. The grantee then pays the subgrantee based
       on the amount shown on the final inspection report.

       In this particular case, FEMA had written four DSRs for the Town of Weare. However,
       the original DSR had been de-obligated and was not properly accounted for in the final
       inspection report. As a result, the grantee paid the town based on the amount listed on
       the final inspection report. However, because the grantee did not have procedures in
       place to independently verify the amount prior to payment, the subgrantee received an
       overpayment of $33,174 in Federal funds. The grantee indicated that they were not
       aware of this overpayment until it was brought to their attention during the course of our
       audit.

       Even though this particular subgrantee's project had been closed out and our testing
       indicated that this was an isolated incident, there were no procedures in place to prevent a
       similar situation from occurring in the future.
FEMA                                                    Bureau of Emergency Management
                                                                  State of New Hampshire
       44 CFR 13.20(b)(2) requires grantees to maintain records, which adequately identify the
       source and application of funds provided for financially assisted activities.

       Conclusion and Recommendations

       By not having procedures in place to ensure that subgrantees are only paid for authorized
       expenditures there is an increased risk that subgrantees will be paid for unapproved
       amounts, which could lead to the potential misuse of Federal funds.

       We recommend that the Regional Director, FEMA Region I, require the grantee to
       develop procedures to:
           1. Prevent and identify overpayments made to subgrantees;
          2. Ensure that subgrantees receive payment only for allowable and eligible costs
              under the disaster assistance grants; and
          3. Promptly recover any overpayments and return to FEMA.

       Management's Response

       FEMA Region I and New Hampshire Bureau of Emergency Management concur with
       this finding and recommendations. The Bureau of Emergency Management has
       developed an Access database that generates spreadsheets to assist personnel in tracking
       payments to sub grantees. The new system will enable Bureau personnel to prevent
       andlor identify overpayments to sub grantees; and if necessary, allow them to recover
       overpayments to be returned to FEMA. In addition, the overpayment in question was a
       direct result of FEMA incorrectly closing out a project and writing a final project
       worksheet based upon this error. The Bureau will work with the FEMA Public
       Assistance staff to cross check written project worksheets.

       Auditor's Additional Comments

       The actions described by management adequately address the conditions cited.
       Therefore, the condition is resolved, but the finding cannot be closed until the
       recommended actions are taken.
           FEMA                                                Bureau of Emergency Management
                                                                         State of New Hampshire

           V. ATTACHMENTS

                                                                                    Attachment A-1



                             Summary Schedule of Source and Application of Funds
                              New Hampshire Bureau of Emergency Management
                                    Disaster Assistance Grant Program
                                         As of September 30,2002

I             All Disasters Numbers 1077 through 1305, and Emergency Declaration Number 3166


                                                         Individual &      Hazard
                                   Public Assistance        Family        Mitigation             Totals
Award Amounts
Federal Share
 Local MatcWState Share                     7,063,935            92,567        1,111,019               8,267,521
Total Award Amount                        $28,255,741          $370,269       $4,444,076             $33,070,086

Source of Funds
 Federal Share                            $20,967,848          $268,711       $2,724,906             $23,961,465
 Local MatcWState Share                     6,989,283            89,570          908,302               7,987,155
Total Source of Funds                     $27,957,131          $358,281       $3,633,208             $31,948,620

Application of Funds
Federal Share                             $20,963,401          $268,307       $2,808,338             $24,040,046
Local MatcWState Share                      6,952,688            89,436          936,113               7,978,237
Total Application of Funds                $27,9 16,089         $357,743       $3,744,45 1            $32,018,283

Balance of Federal Funds on Hand               $4,447             $404             ($83,432)           ($78,581)
              FEMA                                              Bureau of Emergency Management
                                                                          State of New Hampshire


                                                                                    Attachment A-2

                                  Schedule of Source and Application of Funds
                               New Hampshire Bureau of Emergency Management
                                      Disaster Assistance Grant Program
                                           As of September 30,2002

I    Disaster Number 1077 - Declaration Date: January 3,1996 - Excessive Rain, High Winds, and Flooding       I
                                                         Individual &         Hazard
                                     Public Assistance      Family           Mitigation          Totals
Award Amounts
Federal Share                               $2,107,008                  $0        $330,687           $2,437,695
Local MatcWState Share                         702,336                   0         110,229              812,565
Total Award Amount                          $2,809,344                  $0        $440,9 16          $3,250,260

Source of Funds
Federal Share                               $2,107,008                  $0        $330,687           $2,437,695
 Local MatchlState Share                       702,336                   0         110,229              812,565
Total Source of Funds                       $2,809,344                  $0        $440,9 16          $3,250,260

Application of Funds
Federal Share                               $2,107,008                  $0        $330,687           $2,437,695
 Local MatcWState Share                        667,224                   0         110,229              777,453
Total Application of Funds                  $2,774,232                  $0        $440,9 16          $3,215,148

Balance   '   Federal Funds   Hand                 $ 0
                       FEMA                                                           Bureau of Emergency Management
                                                                                                State of New Hampshire


                                                                                                            Attachment A-3

                                             Schedule of Source and Application of Funds
                                          New Hampshire Bureau of Emergency Management
                                                 Disaster Assistance Grant Program
                                                      As of September 30,2002

           I           Disaster Number 1144 -Declaration Date: October 29,1996 - Fall Northeastern Rainstorm                                   I
                                                                          Individual &
                                                    Public Assistance        Family              Hazard Mitigation             Totals
           Award Amounts
           Federal Share                                    $1,9 19,297           $153,702               $76 1,794                  $2,834,793
            Local MatchlState Share                            639,766              5 1,234                253,93 1                    944,931
           Total Award Amount                               $2,559,063            $204,936              $1,015,725                  $3,779,724

           Source of Funds
           Federal Share                                    $1,919,297            $153,702               $761,794                   $2,834,793
            Local MatchIState Share                            639,766              5 1,234                253,93 1                    944,93 1
           Total Source of Funds                            $2,559,063            $204,936              $1,015,725                  $3,779,724

           Application of Funds
           Federal Share                                    $1,910,656            $153,702                $761,794                  $2,826,152
           Local MatcWState Share                              636,885              5 1,234                 253,93 1                   942,050
           Total Application of Funds                       $2,547,541            $204,936               $1,015,725                 $3,768,202

           Balance of Federal Funds on Hand                     $8,641                     $ 0                    $ 0                   $8,641




                                                                Soza & Company, Ltd.                                               17
-   --   ----
            - --   -     -   -   --   -
                                          -
                                          -   -   -- -         -           - - - --   -- -
                                                                                       -   --
                                                                                             -    -     -    --    -    -- -   -   --   ----
                                                                                                                                        --   -
                                                                                                                                               - --
           FEMA                                               Bureau of Emergency Management
                                                                         State of New Hampshire


                                                                                    Attachment A-4

                                Schedule of Source and Application of Funds
                             New Hampshire Bureau of Emergency Management
                                    Disaster Assistance Grant Program
                                         As of September 30,2002

1    Disaster Number 1199 - Declaration Date: January 15,1998 - Severe Ice Storms, Rain, and High Winds


                                                        Individual &
                                   Public Assistance       Family         Hazard Mitigation      Totals
Award Amounts
Federal Share                            $10,062,145          $1 15,000          $1,663,731          $11,840,876
Local MatcWState Share                     3,354,048            38,333              554,577            3,946,958
Total Award Amount                       $13,416,193          $153,333           $2,218,308          $15,787,834

Source of Funds
Federal Share                             $10,062,145         $106,527           $1,226,597          $11,395,269
 Local MatcWState Share                     3,354,048           35,509              408,866            3,798,423
Total Source of Funds                     $13,416,193         $142,036           $1,635,463          $15,193,692

Application of Funds
 Federal Share                            $10,066,339         $106,527           $1,309,047          $11,481,913
 Local MatchfState Share                    3,355,446           35,509              436,349            3,827,304
Total Application of Funds                $13,421,785         $142,036           $1,745,396          $15,309,217

Balance of Federal Funds on Hand             ($4,194)             $ 0              ($82,450)           ($86,644)
           FEMA                                                Bureau of Emergency Management
                                                                         State of New Hampshire


                                                                                    Attachment A-5

                                Schedule of Source and Application of Funds
                             New Hampshire Bureau of Emergency Management
                                    Disaster Assistance Grant Program
                                         As of September 30,2002

I             Disaster Number 1231 -Declaration Date: July 2,1998 - Severe Storms and Flooding                 1
                                                         Individual &
                                   Public Assistance        Family        Hazard Mitigation      Totals
Award Amounts
Federal Share                             $3,075,411             $9,000            $486,446          $3,570,857
Local MatcMState Share                     1,025,137              3,000             162,149           1,190,286
Total Award Amount                        $4,100,548            $12,000            $648,595          $4,76 1,143

Source of Funds
 Federal Share                             $2,862,07 1           $8,482            $3 18,625         $3,189,178
 Local MatcWState Share                       954,024             2,827             106,208           1,063,059
Total Source of Funds                      $3,816,095           $11,309            $424,833          $4,252,237

Application of Funds
Federal Share
Local MatcWState Share                        954,024             2,693             106,535           1,063,252
Total Application of Funds                 $3,8 16,095          $10,771            $426,141          $4,253,007

Balance of Federal Funds on Hand                 $ 0              $404               ($981)               ($577)
          FEMA                                               Bureau of Emergency Management
                                                                       State of New Hampshire


                                                                                    Attachment A-6

                                Schedule of Source and Application of Funds
                             New Hampshire Bureau of Emergency Management
                                    Disaster Assistance Grant Program
                                         As of September 30,2002

              Disaster Number 1305 -Declaration Date: October 18,1999 - Tropical Storm Floyd                I
                                                       Individual &
                                   Public Assistance      Family           Hazard Mitigation     Totals
Award Amounts
Federal Share                               $594,694                  $0             $90,399         $685,093
Local MatcWState Share                       198,231                   0              30,133          228,364
Total Award Amount                          $792,925                  $0            $120,532         $913,457

Source of Funds
Federal Share                               $584,075                  $0             $87,204         $671,279
Local MatchIState Share                      194,692                   0              29,068          223,760
Total Source of Funds                       $778,767                  $0            $116,272         $895,039

Application of Funds
Federal Share                               $584,075                  $0             $87,204         $67 1,279
Local MatcWState Share                       194,692                   0              29,068          223,760
Total Application of Funds                  $778,767                  $0            $1 16,272        $895,039

Balance of Federal Funds on Hand                 $ 0             $ 0                     $ 0              $ 0
                   FEMA                                                      Bureau of Emergency Management
                                                                                       State of New Hampshire


                                                                                                  Attachment A-7

                                            Schedule of Source and Application of Funds
                                         New Hampshire Bureau of Emergency Management
                                                Disaster Assistance Grant Program
                                                     As of September 30,2002

     I               Emergency Number 3166 -Declaration Date: March 28,2001 - Snow Emergency                                    1
                                                                     Individual &
                                               Public Assistance        Family          Hazard Mitigation      Totals
     Award Amounts
     Federal Share                                     $3,433,252                 $0                   $0           $3,433,252
     Local MatcWState Share                             1,144,417                  0                    0            1,144,417
     Total Award Amount                                $4,577,669                 $0                   $0           $4,577,669

     Source of Funds
     Federal Share                                     $3,433,252                  $0                  $0           $3,433,252
      Local MatcWState Share                            1,144,417                   0                   0            1,144,417
     Total Source of Funds                             $4,577,669                  $0                  $0           $4,577,669

     Application of Funds
     Federal Share                                     $3,433,252                  $0                  $0               $3,433,252
     Local MatcWState Share                             1,144,417                   0                   0                1,144,417
     Total Application of Funds                        $4,577,669                  $0                  $0               $4,577,669

     Balance of Federal Funds on Hand                        $ 0                  $ 0                 $ 0                    $ 0




                                                           Soza & Company, Ltd.                                    21
    --
    --         -     -    -- -   -   -   --
                                          --
-                    -
